No. 20In the

Supreme Court of the United States
JOSE EDWARD VALENTIN; ADAM SHEKHTER; MY
SUITE, LLC; 1238 10th STREET LLC; 1433 EUCLID
STREET, LLC; and AVROHOM KRAM,
Petitioners,
v.
THE PEOPLE OF THE STATE OF CALIFORNIA,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeal of the State of California,
Second A ppellate District, Division Seven

PETITION FOR A WRIT OF CERTIORARI

Rosario Perry
Counsel of Record
Rosario Perry, A Professional
Law Corporation
312 Pico Boulevard
Santa Monica, California 90405
(310) 394-9831
rosario@oceanlaw.com
Counsel for Petitioners
297945

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
This case raises important questions of law potentially
affecting more than 35,000 renters and housing providers
in the City of Santa Monica. This zoning ordinance
encompasses all private and corporate party irrespective
of the ownership interest in the residential rental property.
The statute in question is the Santa Monica Municipal
Code Section 9.51.020 (A)(1)(e) “Group Residential”, as
interpreted by the City of Santa Monica in the pending
criminal case against Petitioners criminalizes any oral
offer made by either an owner or tenant to anyone else
to share his or her living quarter.
The Questions Presented are as follows:
1.
Whether Santa Monica Municipal Code Section
9.51.020 (A)(1)(e), which prohibits Group Residential
use, is unconstitutional under the Fifth and Fourteenth
Amendment to the U.S. Constitution because it fails to
give adequate guidance to those who would be law-abiding
and to guide courts in trying those who are accused.
2.
Whether Santa Monica Municipal Code Section
9.51.020 (A)(1)(e) that provides for misdemeanor charges
by means of intruding into private homes of individuals
who are not family members and deny certain benefits
that family members enjoy is constitutional.

ii
PARTIES TO THE PROCEEDINGS BELOW
The caption identifies all the parties to the proceedings
below.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules, petitioner
1238 10th Street LLC and 1433 Euclid Street, LLC state
that they have no parent company, and no publicly held
corporation owns 10% or more of its stock.

iv
STATEMENT OF RELATED PROCEEDINGS
• Jose Edward Valentin et al., v. The People, No.
B305361, Court of Appeal of the State of California,
Second Appellate District, Division Seven. Order
entered April 22, 2020.
• The People of the State of California v. Jose
Valentin, et al., No. BR 054734, Appellate Division
of the Superior Court, State of California, County
of Los Angeles. Order entered March 20, 2020.
• The People of the State of California v. Jose
Valentin, et al., No. BR 054734, Appellate Division
of the Superior Court, State of California, County of
Los Angeles. Judgment entered February 28, 2020.
• The People of the State of California v. Jose
Valentin, et al., No. 8AR26341, Superior Court
of the State of California for the County of Los
Angeles. Judgment entered August 14, 2019.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS BELOW . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
STATEMENT OF RELATED PROCEEDINGS . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . .  viii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 5
I.

The Zoning Ordinance Is Unconstitutionally
Vague And Does Not Give the Required
Notice of Proscribed Conduct . . . . . . . . . . . . . . . . 8

vi
Table of Contents
Page
II. The Appellate Division’s Opinion Is
Incorrect . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
III. The Zoning Ordinance Violates the
Constitutional Right of Privacy . . . . . . . . . . . . . 20
CONCLUSION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

vii
TABLE OF APPENDICES
Page
Appendix A — ORDER OF THE COURT OF
APPEAL OF THE STATE OF CALIFORNIA,
SECOND APPELLATE DISTRICT, DIVISION
SEVEN, FILED APRIL 22, 2020  . . . . . . . . . . . . . . 1a
Appendix B — ORDER of the APPELLATE
DIVISION OF THE SUPERIOR COURT,
STATE OF CALIFORNIA, COUNTY OF
LOS ANGELES, FILED MARCH 20, 2020 . . . . . . 3a
Appendix c — opinion of the APPELLATE
DIVISION OF THE SUPERIOR COURT,
STATE OF CALIFORNIA, COUNTY OF LOS
ANGELES, DATED FEBRUARY 28, 2020 . . . . . . 5a
Appendix D — excerpts of CALIFORNIA
S uperior C ourt transcript,
dated august 14, 2019 . . . . . . . . . . . . . . . . . . . .  17a
Appendix E — Statutory sections . . . . . . 27a

viii
TABLE OF CITED AUTHORITIES
Page
FEDERAL CASES
Arthur Andersen LLP v. U.S.,
544 U.S. 696 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Connally v. General Const. Co.,
269 U.S. 385 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Encino Motorcars, LLC v. Navarro,
136 S.Ct. 2117 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Johnson v. U.S.,
135 S. Ct. 2551 (2015) . . . . . . . . . . . . . . . . . . . . . . 11, 12
United States v. Davis,
139 S. Ct. 2319 (2019)  . . . . . . . . . . . . . . . . . . . . . passim
U.S. v. Cardiff,
344 U.S. 174 (1952)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Village of Hoffman Estates v. Flipside, Hoffman
Estates, Inc.,
455 U.S. 48 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
STATE CASES
City of Santa Barbara v. Adamson,
27 Cal. 3d 123 (1980) . . . . . . . . . . . . . . . . . . . . 22, 23, 24

ix
Cited Authorities
Page
Coalition Advocating Legal Housing Options v.
City of Santa Monica,
88 Cal. App. 4th 451 (2001) . . . . . . . . . . . . . . . . . . . . . 26
College Area Renters & Landlord Assn. v.
City of San Diego,
43 Cal. App. 4th 677 (1996) . . . . . . . . . . . . . . . 24, 25, 26
Ewing v. City of Carmely-The-Sea,
234 Cal. App. 3d 1579 (1991) . . . . . . . . . . . . . . . . . . . .10
Hill v. Athletic Assn.,
7 Cal. 4th 1 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . 22, 23
In re Scarpitti,
124 Cal. App. 3d 434 (1981)  . . . . . . . . . . . . . . . . . . . . 15
Katzev v. Los Angeles County,
52 Cal. 2d 360 (1959) . . . . . . . . . . . . . . . . . . . . . . . . . . 10
People v. Arias,
45 Cal. 4th 169 (2008) . . . . . . . . . . . . . . . . . . . . . . . 9, 19
People v. Heitzman,
9 Cal. 4th 189 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . 10
People v. Overstreet,
42 Cal. 3d 89 (1986) . . . . . . . . . . . . . . . . . . . . . . 9, 15, 20

x
Cited Authorities
Page
People v. Stuart,
47 Cal. 2d 167 (1956) . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Santa Fe Springs Realty Corp. v.
City of Westminster,
906 F.Supp. 1341 (C.D.Cal. 1995)  . . . . . . . . . . . . . . . 13
Sechrist v. Mun. Court,
64 Cal. App. 3d 737 (1976)  . . . . . . . . . . . . . . . . . . . . . 14
Tom. City and County of San Francisco,
120 Cal. App. 4th 674 (2004) . . . . . . . . . . . . . . . . . . . . 23
White v. Davis,
13 Cal.3d 774 (1975) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Zubarau v. City of Palmdale,
192 Cal.App.4th 289 (2011) . . . . . . . . . . . . . . . . . . . . . 13
OTHER AUTHORITIES
Santa Monica Municpal Code § 9.51.020(A)(1)(e) . passim
TREATISES
1 Rathkopf’s The Law of Zoning and Planning
(4th ed.) §§ 5.17, 5.22 . . . . . . . . . . . . . . . . . . . . . . . . . . 14

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Jose E. Valentin; Adam Shekhter;
MySuite, LLC; 1238 10th Street, LLC and Avrohom Kram
respectfully petition for a writ of certiorari to review the
opinion of the for the Appellate Division of the Superior
Court of Los Angeles reversing the trial court’s order
sustaining the demurrer.
OPINION BELOW
The opinion of Appellate Division of the Superior
Court, State of California, County of Los Angeles of
February 28, 2020 (App., infra, 5a – 16a) is unpublished.
The opinion of the Appellate Division of the Superior
Court, State of California, County of Los Angeles denying
rehearing and application for certification of transfer to
the Court of Appeal (App., infra, 3a – 4a) issued on March
20, 2020. The opinion of the Court of Appeal of the State
of California, Second Appellate District (App., infra, 1a
– 2a) denying transfer issued on April 22, 2020.
JURISDICTION
The issue propounded below is possibly permitted
by 28 U.S.C. § 1257(a). The Petition is authorized by U.S.
Supreme Court Rule 10(b) and is timely filed in accordance
with U.S. Supreme Court Rules 13.1; 30 and the Court’s
March 19, 2020 order extending the deadline to file any
petition for a writ of certiorari to 150 days from the date
of the lower court judgment, order denying discretionary
review, or order denying a timely petition for rehearing.
A petition for transfer to the court of appeals was denied
on April 22, 2020 (App., infra, 1a – 2a).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourth A mendment to the United States
Constitution. “The right of the people to be secure in
their … houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated ... .” The
Fifth Amendment to the United States Constitution. “No
person shall be … deprived of life, liberty, or property,
without due process of law.” The Fourteenth Amendment
to the United States Constitution. “No State shall make
or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.”
Santa Monica Municipal Code Section 9.51.020 –
defining a Group Residential use – is reproduced in the
Appendix E. (App. 27a – 39a).
STATEMENT OF THE CASE
Petitioners Jose Edward Valentin; Adam Shekhter;
MySuite, LLC; 1238 10th Street LLC and Avrohom Kram
who are the owners of two apartment buildings in Santa
Monica, California were charged with a misdemeanor and
facing imprisonment under Santa Monica Municipal Code
section 1.08.010(a) for violation of Chapter 9 of the Code,
known and cited as the Zoning Ordinance.
The criminal complaint alleges that Petitioners
violated the Zoning Ordinance by operating what
Respondent alleges is a “Group Residential” facility

3
without obtaining a special permit from the City of Santa
Monica. The portion of the ordinance asserted to have
been violated – Section 9.08.020 – requires a “Minor Use
Permit” to operate what the section defines as “Group
Residential” facility within a “Multi-Unit Residential
District.” The criminal complaint alleges that Petitioners
maintained a “public nuisance by using the residential
property for “Group Residential” purposes without having
a minor use permit during the time period encompassed
in the complaint.”
The Zoning Ordinance authorizes the imposition
of harsh criminal penalties, including substantial fines
and lengthy jail sentences; it makes such a violation a
strict liability offense. The Respondent’s complaint seeks
criminal penalties against Petitioners based on allegations
that Petitioners violated the Zoning Ordinance by
operating a “Group Residential” facility in Santa Monica
at 1238 10th Street, Santa Monica, CA 90401 without
obtaining a special permit from the City of Santa Monica.
Respondent is in effect criminalizing roommates.
The trial court held a pretrial conference to consider
jury instructions on the “Group Residential” counts.
The Court did not decide what instructions it would
give, although it noted that the instructions proposed by
Petitioners for Counts 1 through 5 tracked the language
in the Zoning Ordinance “almost verbatim,” unlike the
Respondent’s proposed instructions. Petitioners’ counsel
raised a concern based on a case recently decided by the
U.S. Supreme Court, United States v. Davis, 139 S.Ct.
2319 (2019), as to whether the Respondents definition of
“Group Residential” is clear enough to support a criminal
conviction, the trial court invited Petitioners to file a
demurrer.

4
Petitioners agreed that a demurrer would be the
proper vehicle to test the issue. Petitioners moved to
dismiss the charges by filing a demurrer to the complaint.
They contended that the Property is not a “Group
Residential” facility based on the definition in §9.51.202(A)
(1)(e). Petitioners also contended, alternatively, that the
Zoning Ordinance’s definition of “Group Residential”
does not clearly encompass the layout and kind of leasing
arrangements at the subject property and, therefore,
criminal penalties cannot be imposed against them.
The Trial Judge, the Hon. William Sadler, sustained
Petitioners’ Demurrer without leave to amend. The trial
court cited the U.S. Supreme Court case United States v.
Davis 139 S. Ct. 2319 (2019) in support of its position that
the section 9.51.020 (A)(1)(e) lacks sufficient clarity to deem
Petitioners’ use of the property as “Group Residential”
use. The court held that Petitioners’ interpretation of
section 9.51.020(A)(1)(e) is reasonable; the “statutory
language is unclear at best”; and, therefore, the rule of
lenity required the Court to interpret the statute favorable
to the defense in this case. (App. 18a – 20a). Respondent
timely appealed the order granting demurrer.
On February 28, 2020, the Appellate Division
issued an Opinion which concluded that the trial court
erroneously sustained the demurrer as to the counts
relating to the “Group Residential” use allegations in the
first amended complaint without leave to amend, ruling
that the definition of “Group Residential” does not provide
adequate notice under the void-for-vagueness doctrine
and should not be applied under the rule of lenity. (App.
10a -11a).

5
The Appellate Division disagreed with the trial court’s
conclusion that an average landlord in Santa Monica
would be unable to determine what the zoning ordinance
requires. (App. 16a). The Appellate Division reasoned
that given the plain meaning of the ordinance’s terms, an
average landlord in Santa Monica who is familiar with the
City’s lease restrictions and rent control policies should
be able to understand the living arrangements to which
the ordinance applies.
On appeal, Respondent argued that the definition of
“Group Residential” is clear and unambiguous. Respondent
further argued that the trial court erred in finding that
Petitioners’ interpretation also is reasonable because it did
not follow traditional canons of statutory interpretation to
determine whether Petitioners’ interpretation is equally
as reasonable as Respondent’s interpretation. Conversely,
Respondents contend that their interpretation of the
zoning ordinance is reasonable, or at least plausible.
In its ruling on February 28, 2019, the Appellate
Division agreed with Respondent’s contention and found
that Petitioners’ interpretation does not do justice to
the plain meaning of the ordinance’s terms and leads to
illogical conclusion.
Petitioners have exhausted all proper channels for
direct review by higher state courts before invoking the
jurisdiction of this Supreme Court.
REASONS FOR GRANTING THE PETITION
The interpretation of the Zoning Ordinance concerns
matters of great importance to more than 35,000 thousand

6
of tenants living in the City of Santa Monica, as well as
to the thousands of Housing Provides who own rental
property within the City of Santa Monica. It is a matter of
widespread interest and presents significant constitutional
issues.
Petitioners contend that certiorari is warranted
because the decision below infringes on fundamental
rights protected by the Fourth, Fifth and Fourteenth
Amendments to the U.S. Constitution. The restriction on
misdemeanants impermissible expands authority of the
local municipality to inquiry as to the status of occupants
of residential units and abridges on constitutional
guarantees. Finally, the lower court’s rejection on voidfor-vagueness analysis conflicts with the Supreme Court
findings in United States v. Davis, 139 S.Ct. 2319 (2019).
These claims merit review.
The statute in question is the Santa Monica Municipal
Code’s (“SMMC”) Section 9.51.020 (A)(1)(e) “Group
Residential”, as interpreted by the City of Santa Monica in
the pending criminal case against Petitioners criminalizes
any offer, whether oral or written, made by either an
owner or tenant to anyone else to share his or her living
quarter. (App. 30a). Not only does SMMC §9.51.020 (A)(1)
(e) authorize the imposition of harsh criminal penalties,
including substantial fines and lengthy jail sentences; it
makes such a violation a strict liability offense.
The property in question is an improved multi-story
apartment building of 10 residential units. This property is
classified by §9.51.020(A)(1)(d) as a “Multi-Unit Dwelling,”
i.e.:

7
“2 or more dwelling units within a single
building or within 2 or more building on a site
or parcel. Types of multiple-unit dwellings
include garden apartments, senior housing
developments, and multi-story apartment and
condominium buildings. This classification
includes transitional housing in a multiple-unit
format.”
Section (1)(d) also states that “[t]his arrangement [that
is, a ‘Multi-Unit Dwelling’] is distinguished from group
residential facilities” (id.), which are defined in the next
subsection of 9.51.020 (A)(1) as follows:
“Shared living quarters without a separate
kitchen or bathroom facilities wherein 2 or
more rooms are rented to individuals under
separate rental agreements or leases, either
written or oral, whether or not an owner, agent
or rental manager is in residence, offered for
rent for permanent or semi-transient residents
for periods generally of at least 30 days.”
The Zoning Ordinance provides examples of the kind
of facilities that are, and are not, “Group Residential”
facilities. Specifically, Section 9.51.020(A)(1)(e) states:
“This classification includes rooming and boarding houses,
dormitories, fraternities, convents, monasteries, and other
types of organizational housing, and private residential
clubs, but excludes extended stay hotels intended for
long-term occupancy … and Residential Facilities.”
The subject property is clearly a “Multi-Unit Dwelling,”
as that is defined in the Zoning Ordinance. As such, it
cannot also be a “Group Residential” facility. The Zoning

8
Ordinance provides, in section 9.51.020(A)(1)(d), that the
two classifications are mutually exclusive.
All units at the property include shared space
and facilities, but the shared space and facilities are
not accessible to the tenants in the other units in the
property. Therefore, each unit in the property has
its own, i.e., “separate,” kitchen, living area, laundry
facilities, bedrooms, and bathrooms – just like a traditional
apartment.
The Appellate Division Opinion will allow Respondent
to impose its vague interpretation of the questioned section
of the Santa Monica Municipal Code §9.52.020 (A)(1)(e);
this will impact literally thousands of tenants living in the
City; as well as Housing Providers. It will deprive tenants
of their right to sublet; deprive Housing Providers their
due process rights, and deprive the Petitioners of their
right to receive a fair notice of what conduct is proscribed.
I.

The Zoning Ordinance Is Unconstitutionally
Vague And Does Not Give the Required Notice of
Proscribed Conduct

A criminal statute that does not define the crime with
sufficient certainty violates the constitutional guarantee
of due process of law. This case presents a great example
of the law that, on its face, does not provide a clear
notice of proscribed conduct and authorizes selective or
discriminatory enforcement.
Petitioners have been charged with criminal penalties
for operating an apartment building in a way that allegedly
constitutes a “Group Residential” use thereby requiring

9
a special permit. However, the “Group Residential”
provision in the Zoning Ordinance is unconstitutionally
unclear in two respects. Santa Monica Municipal Code
§9.51.020(A)(1)(e).
First, it is unclear what “shared living quarters” are.
Are the “shared living quarters” the entire building, the
specific units within the building, or the portion of the
unit that is shared?
Second, it is unclear what the bathroom and kitchen
need to be separate from. Do the bathroom and kitchen
need to be separate from other units in the building? Do
tenants within the same unit need separate bathrooms and
kitchens (i.e., two kitchens in a single two bedroom unit)?
The lower court opinion reversing Petitioner’s
Demurrer does not provide sufficient clarity as to what to
be considered a shared living quarter within the meaning
of the statute. There are multiple interpretations of the
statue that militates against enforcement thereof as it
applies to Petitioners. Under the rule of lenity, when
a penal statute is reasonably susceptible to multiple
interpretations, the statute or ordinance must be construed
as favorably to the defendant as its language and the
circumstances permit. (People v. Arias, 45 Cal.4th 169,
177 (2008) [“If a statute defining a crime or punishment
is susceptible of two reasonable interpretations, [the
court] ordinarily adopt[s] the interpretation that is more
favorable to the defendant]; People v. Overstreet, 42 Cal.3d
891, 896 (1986) [“The defendant is entitled to the benefit
of every reasonable doubt as to the true interpretation
of words or the construction of a statute”].) As the Court
stated in Connally v. General Const. Co., 269 U.S. 385,
391 (1986):

10
That the terms of a penal statute creating a new
offense must be sufficiently explicit to inform
those who are subject to it what conduct on their
part will render them liable to its penalties
is a well-recognized requirement, consonant
alike with ordinary notions of fair play and the
settled rules of law; and a statute which either
forbids or requires the doing of an act in terms
so vague that men of common intelligence must
necessarily guess at its meaning and differ as
to its application violates the first essential of
due process of law.
(See also U.S. v. Cardiff, 344 U.S. 174, 176-177 (1952);
Katzev v. Los Angeles County, 52 Cal.2d 360, 371-372
(1959))
In People v. Heitzman, 9 Cal.4th 189, 199-200 (1994),
the Court identified the two aspects of the certainty
requirement:
First, the provision must be definite enough to
provide a standard of conduct for those whose
activities are proscribed. . . . [¶] Second, the
statute must provide definite guidelines for
the police in order to prevent arbitrary and
discriminatory enforcement.
As the Court noted in Ewing v. City of Carmel-By-TheSea, 234 Cal.App.3d 1579, 1594 (1991), a vague law not
only violates the constitutional right to due process, but
impermissibly delegates the legislative job of defining
what is prohibited to the police, judges and juries, and it
may have a chilling effect, causing people to steer a wider
course than necessary to avoid civil or criminal penalties.

11
Earlier this year, in Davis, the Supreme Court struck
down a statute making it a crime to use a firearm during
the commission of other federal crimes “that by [their]
nature, involve[] a substantial risk that physical force
against the person or property of another may be used in
the course of committing the offense.” (18 U.S.C. § 924(c)
(3)(B).) The Court concluded that the statute violates due
process and separation of powers principles because it
provides no “reliable way to determine which offenses
qualify as crimes of violence.” (139 S.Ct. at p. 2324.) As
Justice Gorsuch explained:
In our constitutional order, a vague law is no law
at all. Only the people’s elected representatives
in Congress have the power to write new federal
criminal laws. And when Congress exercises
that power, it has to write statutes that give
ordinary people fair warning about what the
law demands of them. Vague laws transgress
both of those constitutional requirements.
They hand off the legislature’s responsibility
for defining criminal behavior to unelected
prosecutors and judges, and they leave people
with no sure way to know what consequences
will attach to their conduct. When Congress
passes a vague law, the role of courts under
our Constitution is not to fashion a new, clearer
law to take its place, but to treat the law as a
nullity and invite Congress to try again. (Id.
at p. 2323.)
In 2015, the Supreme Court decided a similar case –
Johnson v. U.S. 135 S.Ct. 2551 (2015). That case involved
the application of a provision of the Armed Career
Criminal Act of 1984, which imposed enhanced criminal

12
punishment on persons who commit specific crimes after
having been convicted of a “violent felony.” The statute
defined “violent felony” to include offenses that presented
a “serious potential risk of physical injury to another.”
(Id. at pp. 2553-2554, citing 18 U.S.C. § 924(e)(2)(B)
(ii).) The Court held that the definition was vague and,
therefore, the statute’s enhanced punishment provision
was void. It rejected the Government’s argument that it
could use a “categorical” approach to deciding whether
a particular crime qualified as a violent crime – that is,
deciding whether an offense involved a “serious potential
risk of physical injury to another” based on whether the
offense ordinarily involves that kind of risk. (Id. at p. 2554,
citation omitted.)
In light of the rejection of the “categorical” approach
in Johnson, the Government argued in Davis that the
statute in question in that case could be saved by adopting
a “case-specific approach,” where the Court would look
to the defendant’s actual conduct to decide whether it
involved “physical force against [a] person or property.”
The Court rejected the argument as inconsistent with
the statutory language – the statute referred to the
“elements” and “nature” of the offense, rather than what
occurred in a specific case. (139 S.Ct. at pp. 2327-2328.)
The Government also argued in Davis that the Court
should employ the canon of “constitutional avoidance”
in construing and applying the statute in question, and
thus construe the statute in such a way as to save it
from being held unconstitutional. (139 S.Ct. at p. 2332.)
The Court rejected the argument because of the nature
of the statute: When a court is required to construe an
ambiguous criminal statute, it must adopt the “narrower”

13
construction. (Ibid., original italics.) A construction that
expands the scope of a statute in order to save it violates
the rule of lenity. As the Court explained:
Applying constitutional avoidance to narrow a
criminal statute, as this Court has historically
done, accords with the rule of lenity. By contrast,
using the avoidance canon instead to adopt a
more expansive reading of a criminal statute
would place these traditionally sympathetic
doctrines at war with one another. (Id. at p.
2333.)
Therefore, the Court rejected the Government’s argument
that it should construe the statute to apply to a crime that
is not inherently violent, but is committed in a violent way.
(Id. at p. 2332.)
The “void-for-vagueness” doctrine has often been
applied in cases challenging the enforceability of a land use
regulation or zoning ordinance. (See, e.g., Zubarau v. City
of Palmdale, 192 Cal.App.4th 289, 311 (2011) [ordinance
prohibiting amateur radio operator from having a tower
antenna in his backyard]; Santa Fe Springs Realty Corp.
v. City of Westminster, 906 F.Supp. 1341, 1364 (C.D.Cal.
1995) [ordinance authorizing denial of permit to operate
adult business based on a finding that the business would
“adversely affect” the use of a church, park, playground,
mobile home park, or other place used for similar purposes
if it was “insufficiently buffered” from such places].)
Where, as here, a municipality is seeking to enforce
a zoning law in a criminal case, it is critical that the law
be “clear, precise, definite, and certain in its terms.”

14
(1 Rathkopf’s The Law of Zoning and Planning (4th
ed.) §§ 5.17, 5.22 (“Rathkopf’s”); id. § 5.17 [“In criminal
proceedings, a zoning ordinance typically will be strictly
construed in favor of the defendant”].)
As the Court explained in Sechrist v. Municipal
Court, 64 Cal.App.3d 737, 745 (1976), where a zoning
ordinance is challenged as being too vague:
Often the requisite standards of certainty can
be fleshed out from otherwise vague statutory
language by reference to any of the following
sources: (1) long established or commonly
accepted usage; (2) usage at common law;
(3) judicial interpretations of the statutory
language or of similar language; (4) legislative
history or purpose. . . . Zoning regulations are
no exception to the foregoing principles.
In Sechrist, plaintiff sought to enjoin the prosecution
of a complaint charging him with a misdemeanor violation
of a zoning ordinance by storing inoperable vehicles at
his home, located in a single-family residential (“SFR”)
zone. He claimed that the ordinance was insufficiently
clear in defining what was permitted in an SFR zone. The
Court held that whether the ordinance provided sufficient
notice that the activity in question was prohibited could
be decided in light of: (1) what was, and was not, typically
permitted in an SFR zone; (2) “a wealth of zoning cases
as well as a reservoir of common law” on the issue of what
constitutes “residential use”; and (3) the purposes of SFR
zoning – to stabilize the economic and social aspects of
a neighborhood, promote aesthetic considerations, and
promote a safe and healthful environment to raise a family.
(64 Cal.App.3d at pp. 745-746.)

15
In In re Scarpitti, 124 Cal.App.3d 434, 440-441 (1981),
the Court identified another factor to be considered in
deciding whether a zoning ordinance is too vague to
be enforced with criminal sanctions: whether there is
“any arguable reason” for the ordinance. In Scarpitti,
a property owner was convicted of violating a zoning
ordinance by parking his commercial truck on his
property. The property was zoned for “rural/residential”
use with a permitted density of one dwelling unit per four
acres. (Id. at p. 437.) The Court of Appeal overturned the
conviction. It relied, in part, on its conclusion that there
was no reason to prohibit the parking of a commercial
truck in an area that was zoned for rural purposes, where
agricultural and mining equipment was permitted. The
Court concluded that the “absence of any arguable reason
for banning Scarpitti’s truck suggests discriminatory and
arbitrary law enforcement, one of the dangerous effects
. . . of vague statutes.” (Id. at pp. 440-441.)
Respondents interpret § 9.51.020(A)(1)(e) to mean
that an apartment unit is used for “Group Residential”
purposes only where: (1) the unit includes two or more
rooms and is rented to two or more tenants (and thus
constitutes “shared living quarters”); (2) each tenant signs
a separate lease or rental agreement; and (3) the unit does
not have its own, “separate” kitchen or bathroom facilities.
As the Trail Judge at the lower lever confirmed, this
is a reasonable interpretation, even if it is not the only
reasonable interpretation. Therefore, even if this Court
finds that the People’s interpretation is reasonable, under
the rule of lenity, the Court must adopt Respondents’
construction in this case. As the Court said in Overstreet,
supra, 42 Cal.3d at p. 896, the “defendant [in a criminal
case] is entitled to the benefit of every reasonable doubt

16
as to the true interpretation of words or the construction
of a statute.”
Petitioners had no notice or understanding that
they were operating the apartment building as “Group
Residential” facility. It is noteworthy, that at the August
14, 2019 hearing, Judge Sadler found the provision
to be “confusing at best” and that it could mean what
Respondents say it means. The transcripts of the hearings
on June 28 and August 2, 2019 reflect that Judge Sadler
had great difficulty in attempting to ascertain what
“Group Residential” means. If a Superior Court judge
cannot readily divine an unambiguous meaning, then how
can the average landlord?
When § 9.51.020(A)(1)(e) is read in its entirety and
in context, i.e., in light of other provisions in the Zoning
Ordinance, it would be unreasonable to conclude it
unambiguously encompasses the kind of the leaving
arrangements in place at the subject property. The
“Definitions” section in the Zoning Ordinance, § 9.52.020,
includes a long list of defined terms, but “shared living
quarters” is not among them.
Section 9.51.020(A)(1)(e) identifies examples of what
constitutes “Group Residential” use: rooming and boarding
houses, dormitories, fraternities, convents, monasteries,
and other types of “organizational housing,” and private
residential clubs. The property in question is just like a
traditional apartment, not like a rooming or boarding
house or any kind of organizational housing. Thus, while
§ 9.51.020(A)(1)(e) may provide sufficient notice that certain
facilities – rooming and boarding houses, dormitories,
fraternities, convents, monasteries, organizational

17
housing, and private residential clubs – cannot be operated
without a special permit, it does not provide sufficient
notice that arrangements like the quite different ones at
the property also require a special permit.
Petitioners’ business model thus serves the public
interest by enhancing the prospects for individuals
who want to live in a particular area to find affordable
housing in that area; it does so in a way that has no
undesirable impact on the density, residential character
of the neighborhood, or property values in the area; and,
therefore, there is no rational basis to require a special
permit or to treat the arrangements at the Property
differently than traditional roommate arrangements or
even an apartment building where each unit is occupied
by a single family or “household.” The use of the property
is not analogous to the examples of “Group Residential”
included in §9.51.202(A)(1)(e).
II. The Appellate Division’s Opinion Is Incorrect
The Respondent’s interpretation in general, and
the decision the court below in particular, reflect a
misapplication of constitutional principles.
The Appellate Division ruling thus does not clearly
address what is the definition of “shared living quarters?”
Is it the entire building, or the specific units within the
building, or the portion of each unit that is shared? The
Opinion stated without clarity – “the room where a
person lives.” However, this interpretation of “shared
living quarters” is a contradiction of §9.51.020 (A)(1)
(d)’s definition of “Group Residential.” As stated above,
the section defines “shared living quarters” with the

18
qualifier language “wherein” i.e. “shared living quarters
. . . wherein 2 or more rooms. . . “ Thus, under the section,
all “shared living quarters” must have two or more rooms.
If so, was it proper for the Appellate Division to adopt the
definition of the dictionary rather than the section of the
code that defines shared living quarters?
There is no judicial precedent for the Respondent’s
interpretation of § 9.51.020(A)(1)(e). Indeed, the reported
decisions concerning the regulation of organizational
or group housing all involve a facility managed by an
organization that provides special services where the
density of the occupancy and/or nature of the activity at
the facility may be inconsistent with residential zoning.
As interpreted by Respondent, no tenant living in a
two or more bedroom apartment unit would be allowed
to sub-rent his or her unit, even while living within the
unit. A tenant who sublets an empty bedroom in a 2 or
more bedroom unit, creates a “separate rental agreement
or lease” with that subtenant. The first rental agreement
is between a landlord and tenant; the second rental
agreement is the subrental agreement between tenant and
subtenant. Thus, the second agreement creates a violation
of the Zoning Ordinance according to Respondent. It is
black letter law that a subtenant is not in privity with the
landlord. Clearly, the subtenant is not part of the original
tenancy either. Respondent’s interpretation thus requires
a tenant who has lost his or her original co-tenant, to be
forced out of their unit, if he or she cannot afford the rent
living alone. Under the Appellant Division’s interpretation,
there would be as many “shared living quarters” as there
are bedrooms. Thus, a two-bedroom unit would have two
“shared living quarters.” Consequently, each “bedroom”

19
(i.e. “shared living quarters”) would have to have two
“rooms” to qualify as a Group Residential.
Under the Appellate Division’s ruling, the trial
court would have to draft jury instructions that, as was
discussed above, rewrite the statute. A statute that is
challenged facially may be voided if it is “impermissibly
vague in all of its applications”; that is, there is no conduct
that it proscribes with sufficient certainty. Village of
Hoffman Estates v. Flipside, Hoffman Estates, Inc., 455
U.S. 489, 494-495 (1982).
The rule of lenity is especially applicable where the
alleged violation does not involve inherent culpability, i.e.,
where the act constituting the violation would be regarded
as innocent but for the statute. Arthur Andersen LLP v.
U.S., 544 U.S. 696, 703 (2005); People v. Stuart, 47 Cal.2d
167, 175 (1956). Petitioners’ conduct is not inherently
culpable because the maintenance of an apartment
building with arrangements like those at the Property is
not inherently immoral, and there is nothing to suggest
otherwise. The bottom line is that section 9.51.020(A)(1)
(e), as construed by Respondent, is too vague. It does not
meet the constitutional requirement of providing clear
notice of what may constitute a crime.
Petitioners argued at lower court that under the rule
of lenity, when a penal statute is reasonably susceptible to
multiple interpretations, the statute or ordinance must be
construed as favorably to the defendant as its language and
the circumstances permit. People v. Arias, 45 Cal.4th 169,
177 (2008) [“If a statute defining a crime or punishment
is susceptible of two reasonable interpretations, [the
court] ordinarily adopt[s] the interpretation that is more

20
favorable to the defendant]; People v. Overstreet, 42 Cal.3d
891, 896 (1986) [“The defendant is entitled to the benefit
of every reasonable doubt as to the true interpretation of
words or the construction of a statute”].)
In its opinion the lower court concluded that
Petitioners interpretation of the statute in question
would lead to illogical conclusion. The lower court found
the Respondent’s interpretation of “Group Residential”
to be correct. However, the lower court employed - what
this Court found so troubling in Encino Motorcars, LLC
v. Navarro, 136 S.Ct. 2117 (2016) - the distributive canon
to give the statute the meaning Respondent desires.
It is noteworthy, the lower court fell into the trap of
redefining the statute which is in contravention to the
plain meaning rule. A reasonable reading of “Group
Residential” provision, on its face, does not give basis
for the misdemeanor charges as the living arrangements
at the property do not provide basis for such. It also
bears repeating that there is no evidence that “Group
Residential” is commonly understood in the real estate
industry to encompass the layout of units at the property.
III. The Zoning Ordinance Violates the Constitutional
Right of Privacy
The present case concerns the home – a place that is
traditionally protected most strongly by the constitutional
right of privacy. Fourth A mendment to the U.S.
Constitution states: “The right of the people to be secure in
their … houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated...”

21
The question presented in this case, like in the
cases cited below, are whether a constitutional right is
implicated by the government intrusion into privacy rights
of individuals who are not family members and a denial of
certain benefits that family members enjoy is justifiable?
The Zoning Ordinance in question does not pass the
constitution’s master as it may not rely on a classification
based upon persons family status or their intended use of
the premises because it renders the distinction arbitrary
or irrational.
The leading precedent on privacy is White v. Davis,
13 Cal.3d 774-775 (1975) where the California Supreme
Court quoted these words:
“The right of privacy is the right to be left
alone. It is a fundamental and compelling
interest. It protects our homes, our families,
our thoughts, our emotions, our expressions,
our personalities, our freedom of communion,
and our freedom to associate with the people
we choose . . . . [para.] The right of privacy is
an important American heritage and essential
to the fundamental rights guaranteed by
the First, Third, Fourth, Fifth and Ninth
Amendments to the U.S. Constitution. This
right should be abridged only when there is a
compelling public need . . . .”
The inherent legitimacy of the Respondent’s function
does not grant it the unbridled power to pursue what it
deems reasonable and necessary by any and all means.

22
The landmark case of this sort is City of Santa
Barbara v. Adamson, 27 Cal.3d 123, 126–134 (1980)
where the Supreme Court of California struck down
an ordinance enacted by the City of Santa Barbara on
constitutional basis citing that it attempted to regulate a
class of people who can reside together under the same
roof). In Adamson, the court held that a city could not
constitutionally enforce a local ordinance that regulated
the number or type of unrelated persons with whom adults
chose to reside in a home although the plaintiffs in that
case could have sought to legalize their situation under the
local ordinance by seeking to qualify for another type of
housing. The court concluded in its analysis that “zoning
ordinances are much less suspect when they focus on the
use than when they command inquiry into who are the
users.” (emphasis added). It held invalid the distinction
affected by the ordinance between (1) an individual or two
or more persons related by blood, marriage, or adoption,
and (2) groups of more than five other persons. Id. Only
one reasonable conclusion can be drawn from Adamson:
there is an autonomy interest in choosing the persons with
whom a person will reside, and in excluding others from
one’s private residence.
Another California Supreme Court case on point is
Hill v. Athletic Assn., 7 Cal.4th 1 (1994). The court reached
a similar conclusion as in Adamson, supra, 27 Cal.3d
127, and stated that reasonable expectation of privacy is
an objective entitlement founded on broadly based and
widely accepted community norms. Legally recognized
privacy interests are generally of two classes: (1) interests
in precluding the dissemination or misuse of sensitive
and confidential information (‘informational privacy’);
and (2) interests in making intimate personal decisions

23
or conducting personal activities without observation,
intrusion, or interference (‘autonomy privacy).” Id at 35.
It is clear that under Hill, supra, 7 Cal. 4th 1, and
Adamson, supra, 27 Cal. 3d 123, the courts found that the
local ordinance unconstitutionally infringed the right of
privacy in the home. Clearly, the right to choose with whom
to live is fundamental and is subject to strict scrutiny.
No justification put forward by local municipalities in the
above-referenced cases was compelling enough to survive
the judicial review.
Lastly, in Tom. City and County of San Francisco, 120
Cal. App. 4th 674 (2004) the Court of Appeal expanded on
the “autonomy privacy” interest in choosing the persons
with whom a person will reside, and in excluding others
from one’s private residence. The court struck down a
local San Francisco ordinance, seeking to discourage
persons from acquiring private residential property
using tenants in common (TIC) agreements. The court
found that the city’s ordinance violated the constitutional
rights of privacy and equal protection guaranteed by the
California Constitution.
It must be emphasized that the instant case deals
with homes, which have traditionally been subject to the
highest protection against intrusions. There is no case law
that provides the City with the support it seeks to allow
an intrusion in privacy rights in homes. Indeed, the cases
cited herein demonstrate strict adherence to the principle
of stare decisis.
The instant case surely falls within the ambit of the
right to privacy protected by the Constitution. The City

24
has no compelling countervailing interest in enacting
and enforcing the SMMC §9.51.020(A)(I)(e) as it is legally
forbidden to the City under the law. A constitutional
privacy violation was demonstrated at the lower court,
and the trial court property sustained the demurrer.
It will become abundantly clear upon a review of the
facts and issues in this case that this case poses novel
legal issues that have not been addressed by the courts
but implicate fundamental rights.
Section 9.51.020(A)(I)(e) of the Santa Monica
Municipal Code violates the equal protection clause of
Fourteen amendment to the U.S. Constitution to the
extent it differentiates between owner-approved and
tenant-approved residents of the same residential unit.
If Respondent wants to address problems associated
with overcrowding, it should apply the law evenly to all
households. As stated by the Supreme Court of California:
“[z]oning ordinances are much less suspect when they
focus of the use than when they command inquiry into who
are the users.” See City of Santa Barbara v. Adamson,
27 Cal. 3d 123, 133 (1980).
The court in College Area Renters & Landlord Assn.
v. City of San Diego, 43 Cal. App. 4th 677, 678 (1996)
granted a summary judgment in favor of College Area
Renters and Landlord Association striking down City of
San Diego Municipal Code section 101.0463 as violating
the equal protection clause of the California Constitution.
In College, the City of San Diego stated the main
purpose of the invalidated ordinance was to address

25
nuisance problem associated with nonowner occupied
rentals-including overcrowding and inadequate living
space, lack of on-site and public street parking, excessive
noise, litter, and inadequate property maintenance which
adversely affects the character of one-family residential
zones. The ordinance limited the number of adult
occupants of a rented one-family dwelling unit premised
on the square footage of bedroom areas, the number and
size of bathrooms, and the amount of off-street parking.
In striking the municipal code section the court found
it to be based on irrational distinction between tenant
approved occupants and owner approved occupants of
those dwellings. Although equal protection does not
demand that a statute apply equally to all persons, it does
require that persons similarly situate with respect to
the legitimate purpose of the law receive like treatment.
See College (emphasis in original). The court found that
the ordinance does not pass the constitution’s master
and concluded that the statute did not survive a rational
basis test as it was not rationally related to a legitimate
state purpose. A zoning ordinance may not rely on a
classification whose relationship to an asserted goal is
so attenuated as to render the distinction arbitrary or
irrational. Id. at 427- 428.
The present ordinance, as in College, applies to all
renters, as long as they are not for less than 30 days,
and these tenants should be viewed as similarly situated
for purposes of controlling occupancy of rent controlled
units. There is no sufficient connection between the tenant
approved occupants and owner approved occupants of the
same unit to justify imposition of occupancy restriction
on residents.

26
Another precedent in support of the Action position is
Coalition Advocating Legal Housing Options v. City of
Santa Monica, 88 Cal. App. 4th 451 (2001). There the court
invalidated on equal protection grounds an ordinance
that distinguished between tenant-occupants and
owner-occupants of detached dwellings in single-family
residential neighborhoods. The ordinance was designed
to address nuisance problems associated with a nonowner
occupied rentals, including overcrowding, lack of parking,
excessive noise, and inadequate maintenance “which
adversely affects the character of one-family residential
zones.” The court reviewed the city’s argument under
rational basis standard and found that the occupancy
restrictions bear no rational relationship to the legislative
goal of preventing undue concentration of population and
traffic.
The City of Santa Monica repeats its mistake
by enacting the ordinance in question as it classifies
similarly situated tenants according to the nature of their
agreements in direct violation of equal protection clause.
The city failed to adduce any facts that would warrant
another conclusion. The striking similarity between the
Section 9.51.020(A)(I)(e) and the Municipal Code section
in College Area Renters & Landlord Assn. justifies only
one conclusion: Section 9.51.020(A)(1)(e) is unconstitutional
and Judge Hon. William Sadler sustaining Demurrer to
the Respondent’s complaint should be affirmed.
Ultimately, there is no possible justification to read
section 9.51.020 (A)(1)(e) to mean what Respondent
contends it means. The language of the statute, as written,
does provide authority to impermissibly inquiry into the
nature of arrangements of co-occupants of a single unit
statute. It cannot be emphasized enough that this statute

27
violates the cornerstone principles of the Constitution as
it applies to owners and anyone with ownership right to
sublease respective unit to other people.
The Santa Monica Municipal Code section 9.51.020
(A)(1)(e) poses the gravest threat to more than 35,000
thousand of renters and housing providers of the City
of Santa Monica. Section 9.51.020 (A)(1)(e) provides for
criminal prosecution for an ordinary practice of renting
conventional multi-bedroom units to different tenants
without defining impermissible conduct with sufficient
clarity. It impermissibly delegates the legislative job to
law enforcement agencies. The suspect section clearly
violates the constitutional principles set forth above.
Therefore, the Court should grant this petition for a writ
of certiorari.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Rosario Perry
Rosario Perry, A Professional
Law Corporation
312 Pico Boulevard
Santa Monica, California 90405
(310) 394-9831
rosario@oceanlaw.com
Counsel for Petitioners
Date: September 21, 2020

APPENDIX

1a
AppendixOF
A THE COURT OF
APPENDIX A — ORDER
APPEAL OF THE STATE OF CALIFORNIA,
SECOND APPELLATE DISTRICT, DIVISION
SEVEN, FILED APRIL 22, 2020
IN THE COURT OF APPEAL OF
THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SEVEN
B305361
JOSE EDWARD VALENTIN et al.,
Appellants,
v.
THE PEOPLE,
Respondent.
(Super. Ct. [App. Div.] No. BR054734.)
(Super. Ct. No. 8AR26341)
ORDER
THE COURT:
The court has read and considered the petition filed
by appellant on April 13, 2020, seeking transfer of their
case from the Appellate Division of the Los Angeles
County Superior Court to this court. (Cal. Rules of Court,
rule 8.1006.) This court has determined that transfer

2a
Appendix A
under rule 8.1002 of the California Rules of Court is not
necessary to secure uniformity of devision or settle an
important question of law. The petition is denied.
/s/			/s/			/s/		
PERLUSS, P.J.
SEGAL, J.		
FEUER, J.

3a
Appendix
APPENDIX B — ORDER
OFBTHE APPELLATE
DIVISION OF THE SUPERIOR COURT, STATE
OF CALIFORNIA, COUNTY OF LOS ANGELES,
FILED MARCH 20, 2020
APPELLATE DIVISION OF THE SUPERIOR
COURT, STATE OF CALIFORNIA
COUNTY OF LOS ANGELES
No. BR 054734
Airport Trial Court
No. 8AR26341
THE PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff and Appellant,
v.
JOSE VALENTIN, et al.,
Defendants and Respondents.
ORDER
The March 13 petition for rehearing or, in the
alternative, application for certification of transfer to the
Court of Appeal has been read and considered, and it is
denied. The petition for rehearing is not supported by good
cause, and transfer is not necessary to secure uniformity
of decision or to settle an important question of law. (See
Cal. Rules of Court, rule 8.1005(a)(1).)

4a
Appendix B
/s/______________ /s/_________________ /s/_______________
Richardson, J.
Kumar, Acting P.J. Ricciardulli, J.

5a
Appendix
C THE APPELLATE
APPENDIX C — OPINION
OF
DIVISION OF THE SUPERIOR COURT, STATE
OF CALIFORNIA, COUNTY OF LOS ANGELES,
DATED FEBRUARY 28, 2020
APPELLATE DIVISION OF THE
SUPERIOR COURT, STATE OF CALIFORNIA,
COUNTY OF LOS ANGELES
THE PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff and Appellant,
v.
JOSE VALENTIN, et al.,
Defendants and Respondents.
BR 054734
Airport Trial Court
No. 8AR26341
OPINION
INTRODUCTION
Appellant the People of the State of California brought
an action against the owners of two apartment buildings,
the company that manages one of the properties (MySuite,
LLC), and four individuals associated with the owners
of the properties or the manager, charging defendants

6a
Appendix C
with violating various ordinances in the Santa Monica
Municipal Code (SMMC). The trial court sustained a
demurrer filed by MySuite. The People filed an appeal,
arguing the court erred in applying the doctrine of lenity
to find defendant’s interpretation of the subject ordinance
was reasonable. We reverse.
PROCEDURAL HISTORY
The People filed their complaint1 on December 18,
2018, alleging that defendants (collectively referred
to herein as MySuite) operated units in an apartment
building as “group residential use” without obtaining a
minor use permit. MySuite pled not guilty. It filed a motion
to quash in which it asked the court to rule that its conduct
1. In the misdemeanor complaint, the City of Santa
Monica alleged Jose Edward Valentin, Adam Shekhter, Reuben
Saul Robin, MySuite, LLC, and 1238 l0th Street LLC violated
a zoning ordinance on 4 separate dates in 2018 by engaging in
a “Group residential” use in a building without a required minor
use permit (SMMC, § 9.48.010, subd. (A), counts 1-4), maintained
a public nuisance on the property (SMMC, § 8.96.030, subd. (b),
count 5), and, in bad faith, influenced or attempted to influence
tenant to vacate a unit through fraud, intimidation, or coercion
(SMMC, § 4.56.020, subd. (f), count 6). In count 7, Valentin, 1433
Euclid Street, LLC, and Avroham Kram were alleged to have,
in bad faith, influenced, or attempted to influence, a tenant to
vacate a unit through fraud, intimidation, or coercion. (SMMC,
§ 4.56.020, subd. (f).)
In a first amended complaint, the People added an eighth
count, under SMMC section 8.96.030, subdivision (b), alleging
one of defendants’ buildings created a public nuisance because it
was substandard.

7a
Appendix C
was not covered by the definition of “Group Residential”
in the zoning ordinance. The court denied the motion to
quash, finding it not to be the proper procedure for raising
the issue of whether or not the subject property was being
used for “Group Residential” purposes. MySuite made the
same argument in a hearing concerning proposed jury
instructions, but the court did not issue a ruling on jury
instructions for the definition of group residential use.
On July 11, 2019, MySuite filed a demurrer on the
ground that the definition of “group residential” is clear on
its face but unconstitutionally vague as applied to its multiunit apartment building. The People filed a first amended
complaint, while the demurrer was under submission. They
continued to allege MySuite operated a group residential
use without having obtained a minor use permit. On
August 14, 2019, the court sustained the demurrer as
to the counts relating to the “group residential use”
allegations in the first amended complaint without leave
to amend, ruling that the correct interpretation of the
term “group residential” applies to the units in MySuite’s
building, but the definition of “group residential” does
not provide adequate notice under the void-for vagueness
doctrine and should not be applied under the rule of lenity.
The court indicated it was concerned about the average
landlord’s ability to determine what the zoning ordinance
demands.
FACTS
The basis for the charges in the People’s complaint
is as follows: MySuite owns and operates a multi-unit
apartment building in Santa Monica. After it purchased

8a
Appendix C
the property in 2015, MySuite subdivided some of the
units into two separate units so that one of the units was
left without a kitchen. It completed this project in June
2018 and immediately began to rent out the units. In July
2018, the City of Santa Monica (the City) issued notices of
uninhabitability to MySuite regarding the units that did
not have kitchens. MySuite then removed the locks from
the front doors of the newly constituted units and, in this
way, made the two units one unit once again.
After September 2018, now that the units were one
apartment again, both sides of the units had access to
the kitchen. As the City considered this arrangement to
be a “group residential use” because they were typically
divided into a Unit A and a Unit B, with each unit leased
separately to different individuals, who shared the
kitchen, it informed MySuite that MySuite still had to
obtain a minor use permit, pursuant to the applicable
zoning ordinance. 2 When MySuite did not comply, the City
filed the misdemeanor complaint.
Section 9.08.020 of the SMMC requires a landlord to
obtain a minor use permit in order to rent property as
a group residential use. “Group Residential” is defined
as “Shared living quarters without separate kitchen or
bathroom facilities wherein two or more rooms are rented
to individuals under separate rental agreements or leases,
either written or oral … for periods generally of at least
30 days.” (SMMC, § 9.51.020(A)(l)(e).)
2. MySuite contends the units in its buildings have only
one lease agreement. As this appeal is from a ruling on a demurrer,
such a factual dispute need not be resolved here.

9a
Appendix C
DISCUSSION
Standards of Review
An order sustaining a demurrer to all or any portion
of a complaint is appealable. (Pen. Code, § 1466, subd. (a)
(3).) Such an appeal is reviewed de novo. (People v. Keating
(1993) 21 Cal.App.4th 145, 151.)
Void-for-Vagueness and Rule of Lenity
MySuite does not contest the People’s definition of
“group residential.” Rather, in its demurrer, MySuite
claimed the term, as applied to its multi-unit building,
was void as vague.
The void-for-vagueness doctrine “derives from the
due process concept of fair warning, bars the government
from enforcing a provision that ‘forbids or requires the
doing of an act in terms so vague’ that people of ‘common
intelligence must necessarily guess at its meaning and
differ as to its application.’ [Citations.]” (People v. Hall
(2017) 2 Cal.5th 494, 500; see also People v. Heitzman
(1994) 9 Cal.4th 189, 199-200 [law must provide ordinary
people notice of the conduct that is prohibited and law
enforcement officers the guidelines for what constitutes a
violation].) An “as-applied” void-for-vagueness challenge
depends on the facts of a particular case because it
“contemplates analysis of the facts of a particular case or
cases to determine the circumstances in which the statute
or ordinance has been applied and to consider whether in
those particular circumstances the application deprived

10a
Appendix C
the individual to whom it was applied of a protected right.
[Citations.]” (Tobe v. City of Santa Ana (1995) 9 Cal.4th
1069, 1084.) Fair notice may be achieved, if the government
provides a party a specific warning about the conduct that
is prohibited. (Cranston v. City of Richmond (1985) 40
Cal.3d 755, 771.)
The rule of lenity provides that when two interpretations
of a penal statute are equally reasonable, the statute is
ordinarily interpreted in favor of defendant. (People v.
Arias (2008) 45 Cal.4th 169, 177; People v. Jones (1988) 46
Cal.3d 585, 599.) This rule is inapplicable, however, “unless
two reasonable interpretations of the same provision stand
in relative equipoise, i.e., that resolution of the statute’s
ambiguities in a convincing manner is impracticable.”
(People v. Jones, supra, 46 Cal.3d at p. 599.) “Thus,
although true ambiguities are resolved in a defendant’s
favor, an appellant court should not strain to interpret a
penal statute in defendant’s favor if it can fairly discern
a contrary legislative intent.” (People v. Avery (2002) 27
Cal.4th 49, 58 (Avery); see also People v. Wade (2016) 63
Cal.4th 137, 147 [citing Avery]; People v. Cole (2006) 38
Cal.4th 964,986 [same].)
Plain Language of Zoning Ordinance
In the People’s view, under the plain terms of the
ordinance, a living arrangement is a group residential use
if two or more tenants reside in the same living quarters
(“shared living quarters”); the shared living quarters
contain a kitchen or bathroom; and the bedrooms are
rented to the tenants under separate leases of at least

11a
Appendix C
30 days. MySuite contends an apartment unit qualifies
for group residential use when it includes two or more
rooms; is rented to two or more tenants; each tenant signs
a separate rental agreement; and the unit does not have
its own separate kitchen or bathroom facilities.
Given the parties’ divergent views, first, we determine
whether the ordinance can be fairly interpreted by
‘“look[ing] to the statute’s words and giv[ing] them their
usual and ordinary meaning. [Citation.] The statute’s
plain meaning controls the court’s interpretation unless
its words are ambiguous.’ [Citations.]” (People v. Arias,
supra, 45 Cal.4th at p. 177.) Statutes are also to be
interpreted in such a way to avoid absurd results. (People
v. Valladoli (1996) 13 Cal.4th 590, 604.)
Bearing the principles above in mind, in the group
residential use ordinance, the plain meaning of “shared” is
“used, done, belonging to, or experienced by two or more
individuals.” (Merriam-Webster Online Dictionary (2020),
http://www.merriam-webster.com.) In the SMMC, “living
quarters” is defined as “[a] structure or portion thereof
which is used principally for human habitation.” (SMMC,
§ 9.04.02.030.450.) The plain meaning of “living quarters”
is similarly “the room where a person lives.” (MerriamWebster Online Dictionary (2020), http://www.merriamwebster.com.) For starters then, in the group residential
use ordinance “shared living quarters” means two or more
tenants have to share the same space or living quarters.
The plain meaning of “without” is “the absence
or lack of something or someone.” (Merriam-Webster

12a
Appendix C
Online Dictionary (2020), http://www.merriam-webster.
com.) The plain meanings of “separate” are “set or kept
apart” and “not shared with another.” (Merriam-Webster
Online Dictionary (2020), http://www.merriam-webster.
com.) Therefore, the phrase “without separate kitchen
or bathroom facilities” can reasonably be interpreted to
mean not having separate kitchen or bathroom facilities.
As used in the ordinance, the term “wherein” is
reasonably interpreted to relate back to the phrase
“shared living quarters” and its plain meaning is “in
which.” (Merriam-Webster Online Dictionary (2020),
http://www.merriam-webster.com.) The phrase “two or
more rooms are rented to individuals under separate rental
agreements” relates to the specific rooms the tenants rent
in the living quarters and the rental agreement that each
individual has that formalizes their individual tenancies.
Considering the plain meaning of the ordinance’s
terms in context, “group residential use” can be reasonably
interpreted to apply to a living arrangement involving two
or more tenants who share the same living quarters, that
does not have separate kitchen or bathroom facilities; and
each tenant has entered into separate rental agreements
of at least 30 days for their room or rooms in that living
quarters.
The three questions the People pose to determine
whether a “group residential use” is in place-do two or
more tenants share a living quarters; do they share a
kitchen or bathroom; and do the tenants rent rooms in
the living quarters under separate leases for 30 days or
more-are consistent with the ordinance’s plain language.

13a
Appendix C
We also note that in its reply brief in support of its
demurrer, MySuite stated, “its undisputed that leasing
practices at one of the apartment buildings that are the
subject of this case … includes ‘co-living’ arrangementsthat is, arrangements where tenants within a unit are
each allocated certain space (including a bedroom) for
his or her exclusive use and are permitted to share space
(including a kitchen and laundry facilities) with the other
tenants in the unit.” This description appears to fall within
the definition of “group residential use.”
Both parties appear to agree that “shared living
quarters” refers to a unit in a building where there are
tenants who are sharing some portion of the unit, and
they have separate leases in the shared space. The point
at which they diverge is the meaning to be attributed to
the phrase “separate kitchen or bathroom facilities.” The
People contend it refers to space in the “shared living
quarters.” While asserting it is unclear what the phrase
means, MySuite adds that it can reasonably be construed
to mean that “a unit is used for ‘Group Residential’
purposes where it does not have its own, i.e., ‘separate,’
kitchen or a bathroom and, therefore, where residents
must share a kitchen or bathroom with other residents
in the building.”
We find MySuite’s interpretation does not do justice
to the plain meaning of the ordinance’s terms and leads
to illogical conclusions. MySuite’s interpretation then
differs from the People’s in that MySuite suggests the
living quarters that is shared does not have a kitchen
or a bathroom. That interpretation, however, would lead
to an absurd result because, as the People note, a living

14a
Appendix C
quarters, by definition, cannot lack its own kitchen or
bathroom; it has to have such facilities to be a living
quarters. A statute cannot be interpreted in such a way
that it leads to absurd results. (People v. Valladoli, supra,
13 Ca1.4th at p. 604.)
Moreover, as the People contend, and MySuite
appears to agree, under MySuite’s interpretation, a
group residential use would occur only if individuals who
reside outside of the living quarters share the kitchen
or bathroom with tenants residing in the subject living
quarters. That is to say, the tenants in one living quarters
would have to exit their unit to use a kitchen or bathroom
that is located in a different living quarters where the
kitchen or bathroom is located. Again, that leads to an
absurd result. Moreover, MySuite’s interpretation would
lead to the logical conclusion that a single living quarters
located in a building in which there are no other living
quarters could never be classified as having a “group
residential use.”
As MySuite’s interpretation is inconsistent with the
plain meaning of the ordinance, we need not apply other
contract interpretation principles, such as considering
the ordinance’s legislative history. However, even if we
were to accept MySuite’s contention that the ordinance
is ambiguous and the trial court’s pronouncement that
it is unclear, the legislative history to which MySuite
directs us does not necessarily support its contentions.
In a draft of the Zoning Ordinance Update in November
2013; “Group Residential” was defined as “Shared living
quarters without separate kitchen or bathroom facilities
for each room or unit, offered for rent for permanent or

15a
Appendix C
semi-transient residents on a weekly or longer basis.”
In a redline version from October 2014, the definition of
“Group Residential” was updated by deleting the terms
“for each room or unit” and “on a weekly or longer basis.”
The definition thus became “Shared living quarters
without separate kitchen or bathroom facilities wherein
two or more rooms are rented to individuals under
separate rental agreements or leases….” Despite the
City contemplating including the phrase “for each room
or unit,” the current definition of “group residential use”
is the only version of the ordinance that was enacted.
The fact that the final version of the zoning ordinance
did not contain the “for each room or unit” phrase is not
necessarily indicative of the legislative intent one way or
another. As the People contend, a reasonable explanation
is that the ordinance’s language was made to be more
precise with the addition of the phrase “wherein two or
more rooms are rented to individuals under separate
rental agreements or leases.” This legislative history,
therefore, does make MySuite’s interpretation equally
plausible and reasonable.
When an ordinance can be given a reasonable
and practical construction, courts have held it not to
be unconstitutionally vague. (See, e.g. Tobe v. City
of Santa Ana, supra, 9 Cal.4th at 1080 [“camp” not
unconstitutionally vague].) The trial court found the
People’s interpretation of the ordinance to be correct, but
it concluded an average landlord in Santa Monica would
be unable to determine what the ordinance requires. As
is evident from the discussion above, we do not agree with
that conclusion. Given the plain meaning of the ordinance’s

16a
Appendix C
terms, an average landlord in Santa Monica who is familiar
with the City’s lease restrictions and rent control policies
should be able to understand the living arrangements to
which the ordinance applies.
In sum, we find the “group residential use” ordinance
can be given a reasonable and practical construction,
that does not render it vague (Tobe v. City of Santa Ana,
supra, 9 Cal.4th at p. 1080); and it provides adequate and
sufficient notice to landlords of what is prescribed and
allows the appropriate authorities to identify a group
residential use, which would require obtaining a minor
use permit (People v. Heitzman, supra, 9 Cal.4th at p.
199-200). Further, the rule of lenity is inapplicable to the
circumstances of this matter because the interpretation of
the ordinance advanced by MySuite is neither reasonable
nor tenable. (Avery, supra, 27 Cal.4th at p. 58.)
DISPOSITION
The court’s order sustaining the demurrer is reversed.

We concur:

/s/
Richardson, J.

/s/
Kumar, Acting P.J.

/s/
Ricciardulli, J.

17a
Appendix D OF CALIFORNIA
APPENDIX D — EXCERPTS
SUPERIOR COURT TRANSCRIPT,
DATED AUGUST 14, 2019
SUPERIOR COURT OF THE STATE
OF CALIFORNIA FOR THE COUNTY
OF LOS ANGELES
No. 8AR26341
Los Angeles, Dept. WE 71 Hon. William Sadler, Judge
THE PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff,
v.
01 JOSE VALENTIN, 02 ADAM SHEKHTER, 04 MY
SUITE LLC, 05 1238 10TH STREET, LLC, 06 1433
EUCLID LLC, 07 AVROHOM KRAM,
Defendants.
REPORTERS’ TRANSCRIPT
OF PROCEEDINGS ON APPEAL
8-2-19 & 8-14-14
[49]Case number:		
8AR26341
Case name:			
Peo vs. Valentin, et. al.
Los Angeles, California
Wednesday, August 14, 2019
Department WE 71		
Hon. William Sadler, Judge
Reporter:			
Stella A. Cordova,
				CSR No. 7538
Time:				A.M. Session

18a
Appendix D
Ms. Suh: Eda U. Suh on behalf of the People
Mr. Braver: Andrew Braver for the People.
Mr. Goldman: James Goldman for Defendants.
Mr. Braun: Harland Braun.
The Court: All right, today is the day for my ruling
on the issue of the Demurrer. The Court will allow the
withdrawal of the previous plea of Not Guilty. There is a
Discretionary Call. I am doing it for the purpose of hearing
this Demurrer. The Court heard argument, reviewed
the briefs provided by all counsel, and conducted its own
research. The Court finds there is sufficient ambiguity in
the statute to render it unconstitutionally vague as applied
to the Defendant’s conduct as said in Counts 1 to 5.
This is my analysis. The Court relies upon the standard
set forth in U.S. vs. Davis, 139 Supreme Court [50]2319,
and there are cases pre-Davis which gave guidance. the
Court finds the law does not give ordinary people, even
the ordinary person in business of rental properties fair
law of what the law demands.
The People’s argument in effect is that the Defense’s
possible interpretation of the statutes are all wrong
because it’s a matter of law.
Other reasonable interpretations run afoul of other
distinct law. This is an appellate argument, however, the
Defense interpretation of the statute in this matter is

19a
Appendix D
that the phrase “without separate kitchen or bathroom
facilities refers to shared living quarters, not to the lease
holders wherein two or more rooms are rented.”
Since the Defendant’s apartment building consists
of several units I cannot say that the Defendants’
interpretation of relevant statute is misguided.
The Defense interpretation of the statute appears to
what the People -- to be what the People have previously
labeled Building Z in their exhibits. If the issue is
painting someone in a corner -- that was the analogy used
previously, that was me painting myself into a corner. I
believe that is what their interpretation is.
The People arg ue that it is not a reasonable
interpretation because Building Z is in fact a typical
rooming house or dorm. The problem is the statute seems
to -- at least a reasonable interpretation of the statute -preclude these residences as non group residential. This
makes it not a rooming house or dorm by the statutory
[51]definition itself.
In other words, yes, Building Z does look like a
dorm or rooming house, but the statute says at least one
reasonable interpretation is that it is not according to the
dictates of 951 -- 9.51.02.
Additionally, while most dorms or rooming houses
consist of multiple bedrooms with shared bathrooms or
kitchens, this building consists of multiple units where the
residents share the bathrooms and kitchens with other
tenants of the individual units.

20a
Appendix D
Ultimately, the Court agrees with the people as to
what the correct interpretation of what the statute is,
but disagrees with the people as to the average landlord’s
ability to determine what the law demands.
The Court believes the statutory language is unclear
at best. If the average landlord were to look at the
legislative history of the statue, the initial, not the draft
statutory language for each room or unit would make
the average landlord believe that the city council was
excluding the language for a reason.
The Rule of Lenity says when there are two or more
interpretations of the statute, the interpretation of the
statute favorable to the Defense is employed.
Finally, the Court has reviewed People vs. Superior
Court JcPenney’s which is a relatively recent case. You
might want to look at that 2018, DJDAR, 3232. I believe
its ruling is in accord with the most recent case dealing
with the vagueness docket.
[52]The Court grants the Defense Demurrer as to
these, leave, and does so without leave to amend.
That being said, I assume what this will do, the People
will probably want to file a writ in this matter which they,
you know, should, so I understand.
Once again, I think I mentioned the previous time,
your last argument was very good. It doesn’t mean that
you win, but your argument was very good, nonetheless,

21a
Appendix D
so I assume that you are going to want to ask to continue
this matter or seek a stay for the purpose of getting a
writ in this matter.
Mr. Braver: That is correct.
(Counsel confer off the record.)
Mr. Braver: That is correct.
The Court: I assume there is no opposition to continue
this matter for the purpose of seeking a writ.
I will do that -- 30 days?
Ms. Suh: Yes.
Mr. Braver: Yes. There is one matter about the First
Amended Complaint. I am not sure if you get to that. I
want to make sure that the record correctly reflects the
Demurrer should apply to Counts 2, 3 and 4 of the First
Amended Complaint.
The Court: Counts 2, 3 and 4, what’s up with -- there
was an Amended Complaint that was filed.
Mr. Braver: That is correct.
The Court: How does that change the dynamics?
Mr. Braver: Count 1 is no longer -- it’s -- it is
[53]Alleging the same conduct, but is no longer based on

22a
Appendix D
a violation of the Zoning Ordinance of Group Residential
Use, instead it’s based on a Public Nuisance Violation.
And at the August 2 hearing, the People applied for Leave
to Amend. Defendants did not object, and, Your Honor
granted Leave to Amend, so the Defendants entered a
Plea of Not Guilty to the First Amended Complaint, and
the Court permitted the Defendants to withdraw their
Plea for the purposes of the Demurrer.
The Court: I just want to make sure because I
looked at the Amended Complaint. I didn’t see anything
particularly different about the language, so you can tell
me legally what -- how this is different.
Mr. Braver: Previously, Count 1, which refers to the
Defendant’s operating a unit without a kitchen alleged a
violation of the Group Residential Use Zoning Ordinance.
Count 1 still refers to the exact same conduct, but it now
alleges -- but now has a count of Public Nuisance instead
of Group Residential.
The Court: So I don’t understand. Is it -- is it the
theory of the People that the -- that the Defendants’
conduct in this matter was a public nuisance because
there was a violation of the statute? That I understand,
and that I understood from previous counts beforehand
where there is another theory of liability.
Mr. Braver: There are two amended nuisance counts
in the First Amended Complaint. The first issue is when
the Defendants operated a living quarters or apartment
[54]without a kitchen. We were alleging that operating
a living quarters without a kitchen is a public nuisance.

23a
Appendix D
Once they changed the arrangements of the living
quarters so that the unit that previously did not have
a kitchen was then shared with the unit that did have a
kitchen, at that point, there was a group residential use
which is both a violation of the Zoning Code and also a
violation of the Public Nuisance Law.
The Court: That I agree with the People on, if the
issue is -- because the -- the challenge in this matter was
a challenge to the vagueness of the statute as applied, and
there could be no application of the statute, there could be
no reasonable interpretation of the statute that would allow
for the Defendant to rent a unit without a bathroom at all.
Mr. Braver: Your Honor, the portion of the Code
that prevents Defendants from renting a unit without a
bathroom is entirely separate from the portion of the Code
that deals with group residential. It’s in a different section
of the Code. It’s in a different article of the Municipal
Code. It’s in Article 8 instead of Article 9, but it’s the
exact same conduct.
The Court: And even if it was, let’s say you are dealing
with the same statutory language even if it was the
same exact statutory language, I am not ruling that the
issue is because there is some conduct that a reasonable
interpretation of that language of the statute -- this isn’t
as an applied challenge, this isn’t a facial [55]challenge,
it can’t be a facial challenge because any clear reading of
the statute would clearly preclude renting a unit without a
bathroom, right? So however you want to parse it, without
a bathroom entirely, I know there is an issue about -- we’ve

24a
Appendix D
gone through that. I gave you my rulings on the other
counts, but on Count 1, if the issue is whether -- that the
Defendant didn’t rent -- rented a unit without a bathroom
in its entirety, then I agree it’s not subject to the Demurrer.
Mr. Braver: That is correct.
Mr. Goldman: Maybe the solution would be to make
an order applicable to the original Complaint, and then
we can file a Demurrer to the First Amended Complaint,
and they can take that up to the Court of Appeal, because
I don’t think we believed this issue as to whether or not
this new theory is legally viable. I think it’s basically the
same theory, but I am sure Counsel disagrees with me.
The Court: That doesn’t matter anyway. First of all,
No. 1, that is, the Defendant was already arraigned on the
Amended Complaint, so we’re at an Amended Complaint
already.
The issue is going to be -- however you parse it, the
issue is the same and, I’m sorry, if the argument is that
you never ever -- I don’t believe legally a facial challenge
will be a -- is going to lie. This is going to be as an applied
challenge because your clients -- the argument is your
clients conducted certain arguments based upon an
interpretation of the statute, and that [56]interpretation
of the statute where they had, you know, different units
inside the building, and their conduct, their conduct in
reliance upon your interpretation of the statute is at issue.
But there is no interpretation that would -- of that statute
that would allow for no bathroom. You will just not win
that one, I believe.

25a
Appendix D
Mr. Goldman: I don’t think that is the issue raised in
the First Amended Complaint.
The Court: That is exactly the issue.
Mr. Braver: That is correct. the issue in the First
Amended Complaint is that there is a section of the
Municipal Code which says it’s a public nuisance if
a landlord operates a vehicle that is not up to State
Habitability Codes, and the State Habitability Code
requires that every unit have a kitchen and bathroom, so
it’s entirely different than Group Residential even though
it’s the same conduct, so that is correct.
The Court: So we have Counts 2, 3, 4 and 5, correct,
that are subject to the Demurrer?
Mr. Braver: yes.
Ms. Suh: That is correct. Your Honor, I do want to also
indicate that the people have -- have agreed to dismiss
Counts 1 and 2 as a part of this filing.
The Court: Dismiss Counts 1 and 2.
Mr. Braver: Of the Original Complaint.
Ms. Suh: Of the Original Complaint.
Mr. Braver: We’re not going to keep the original Count 1.
We’re substituting with the Amended Count 1.

26a
Appendix D
[57]The Court: Well, he was -- I have an Amended
Complaint, so I just think I am not dealing with that. He
has been arraigned as to this Amended Complaint so we’re
-- we’ve got this Amended Complaint. That’s where we’re
at right now, okay.
Mr. Braver: Very good.
The Court: So the Court is then granting the
Demurrer as to Counts 2, 3, 4 and 5. Now, that being said,
why don’t both Counsel approach. I want to talk briefly
about the possibility of a resolution in this matter.
(Bench Conference held off the record.)
The Court: August 28th. I will put that over as zero
of 30. You are authorized to waive time, and waive time on
your client’s behalf to make that a zero of 30 date?
Mr. Braun: Yes.
Mr. Goldman: At 8:30 a.m.?
The Court: Why don’t you come at 10:30. Because -come at 10:00 in case I’m in trial.
Mr. Braun: Thank you.
The Court: You are ordered to return on that date.
(Proceedings concluded.)

27a
Appendix
E
APPENDIX E —
STATUTORY
SECTIONS
Santa Monica Municipal Code
Article 9 Planning and Zoning
Division 5: General Terms
Chapter 9.51 Use Classifications
9.51.020 Residential Use Classifications
A. Residential Use Classifications.
1.

Residential Types.
a.

Single-Unit Dwelling. A dwelling unit
that is designed for occupancy by one
household, located on a single parcel that
does not contain any other dwelling unit
(except an accessory dwelling unit, where
permitted), and not attached to another
dwelling unit on an abutting parcel.
This classification includes individual
manufactured housing units installed
on a foundation system pursuant to
Section 18551 of the California Health
and Safety Code.

b.

Accessory Dwelling Unit. A dwelling
unit providing complete independent
living facilities for one or more persons
that is located on a parcel with another
primary, single-unit dwelling as defined
by State law. It shall include permanent
provisions for living, sleeping, eating,

28a
Appendix E
cooking, and sanitation on the same
parcel as the single-unit dwelling’s
location. A second unit may be within the
same structure as the primary unit, in
an attached structure, or in a separate
structure on the same parcel. This use
is distinguished from a duplex. See
Division 3, Section 9.31.300, Accessory
Dwelling Units, for further details.
c.

Duplex. A single building that contains 2
dwelling units or 2 single unit dwellings on
a single parcel. This use is distinguished
from an Accessory Dwelling Unit,
which is an accessory residential unit as
defined by State law and the ordinance
codified in this chapter.

d.

Multiple-Unit Dwelling. 2 or more
dwelling units within a single building
or within 2 or more buildings on a site or
parcel. Types of multiple-unit dwellings
include garden apartments, senior
housing developments, and multi-story
apartment and condominium buildings.
This classification includes transitional
housing in a multiple-unit format. The
classification is distinguished from
group residential facilities.
i.

Senior Citizen Multiple-Unit
Resi d enti al . A mu lt iple -u n it
development in which occupancy of

29a
Appendix E
individual units is restricted to one
or more persons 62 years of age or
older, or a person at least 55 years
of age who meets the qualifications
found in Civil Code Section 51.3.
ii.

Single-Room Occupancy Housing.
Multiple-unit residential buildings
containing housing units that may
have kitchen and /or bathroom
facilities and are guest rooms or
efficiency units as defined by the
State Health and Safety Code.
Each housing unit is occupied by
no more than 2 persons and is
offered on a monthly rental basis
or longer. See Division 3, Section
9.31.330, Single Room Occupancy
Structures, for further details.

iii. Single-Room Occupancy Housing,
Ma r k e t - R a t e . Mu l t i p l e - u n i t
residential buildings containing
housing units that may have kitchen
and/or bathroom facilities and are
guest rooms or efficiency units
as defined by the State Health
and Safety Code. Each housing
unit is occupied by no more than
2 persons and is offered on a
monthly rental basis or longer.
Single-Room Occupancy Housing,
Market-Rate shall not include any
of the following:

30a
Appendix E
(1) 10 0% A ffordable Housing
Project, as set forth in Section
9.52.020.0050;
(2) Elderly and Long-Term Care,
as set forth in subsection (A)
(3);
(3) Emergency Shelter, as set
forth in subsection (A)(4);
(4) Residential Facility, as set
forth in subsection (A)(7);
(5) Supportive Housing, as set
forth in subsection (A)(8); or
(6) Transitional Housing, as set
forth in subsection (A)(9).
e.

Group Residential . Shared living
quarters without a separate kitchen or
bathroom facilities wherein 2 or more
rooms are rented to individuals under
separate rental agreements or leases,
either written or oral, whether or not
an owner, agent or rental manager
is in residence, offered for rent for
permanent or semi-transient residents
for periods generally of at least 30 days.
This classification includes rooming
and boarding houses, dormitories,

31a
Appendix E
fraternities, convents, monasteries,
and other ty pes of organizational
housing, and private residential clubs,
but excludes extended stay hotels
intended for long-term occupancy (30
days or more; see Hotel and Motel), and
Residential Facilities. Group Residential
includes, but is not limited to, the
following:
i.

Congregate Housing. A residential
facility with shared kitchen facilities,
deed-restricted or restricted by an
agreement approved by the City
for occupancy by low- or moderateincome households, designed for
occupancy for periods of 6 months
or longer, providing services that
may include meals, housekeeping
and personal care assistance as
well as common areas for residents
of the facility. See Division 3,
Section 9.31.110, Congregate and
Transitional Housing, for further
details.

ii.

Senior G roup Residential. A
residential facility that provides
residence for a group of senior
citizens [as defined in Health and
Safety Code Section 1569.2(k)]
with a central kitchen and dining

32a
Appendix E
facilities and a separate bedroom
or private living quarters. See
Division 3, Section 9.31.310, Senior
Group Residential, for further
details.
2.

Corporate Housing. Rental housing which
has all the following attributes:
a.

The housing is designed for use by
individuals who w ill reside on the
property for a minimum stay of at least
30 consecutive days, but who otherwise
intend their occupancy to be temporary.

b.

The housing is intended for use by
persons who will maintain or obtain a
permanent place of residence elsewhere.

c.

The housing includes 2 or more of the
following amenities:
i.

Maid and linen service.

ii.

Health club, spa, pool, tennis
courts, or memberships to area
facilities.

iii. Business service centers.
iv. Meeting rooms.

33a
Appendix E
v.

Fully furnished units including
a combination of some, but not
necessarily all of, the following:
furniture, appliances, housewares,
bed l i nens , t owels , a r t work ,
televisions, entertainment systems,
and computer equipment.

vi. Valet parking.
3.

El d er ly an d L o n g -Ter m Car e . A n
establishment that provides 24-hour medical,
convalescent or chronic care to individuals
who, by reason of advanced age, chronic
illness or infirmity, are unable to care for
themselves, and is licensed as a skilled
nursing facility by the State of California,
including, but not limited to, rest homes,
nursing homes, and convalescent hospitals,
but not Residential Care, Hospitals or
Clinics.

4.

Emergency Shelter. A temporary, shortterm residence providing housing with
minimal supportive services for homeless
families or individual persons where
occupancy is limited to 6 months or less, as
defined in Section 50801 of the California
Health and Safety Code. Medical assistance,
counseling, and meals may be provided. See
Division 3, Section 9.31.130, Emergency
Shelters, for further details.

34a
Appendix E
5.

Family Day Care. A day-care facility
licensed by the State of California that is
located in a dwelling unit where a resident of
the dwelling provides care and supervision
for children under the age of 18 for periods
of less than 24 hours a day.
a.

Small. A facility that provides care for
up to 6 children including children who
reside at the home and are under the age
of 10, or up to 8 children in accordance
with Health and Safety Code Section
1597.44, or any successor thereto.

b.

Large. A facility that provides care for
up to 12 children, including children who
reside at the home and are under the age
of 10, or up to 14 children in accordance
with Health and Safety Code Section
1597.465, or any successor thereto. See
Division 3, Section 9.31.140, Family Day
Care, Large, for further details.

6.

Mobile Home Park. Any area or tract of
land where 2 or more lots are rented, leased,
or held out for rent or lease, to accommodate
mobile homes used for human habitation in
accordance with Health and Safety Code
Section 18214, or any successor thereto.

7.

Residential Facility. Facilities that
provide permanent living accommodations
and 24-hour primarily non-medical care

35a
Appendix E
and supervision for persons in need of
personal services, supervision, protection,
or assistance for sustaining the activities
of daily living. Living accommodations
are shared living quarters with or without
separate kitchen or bathroom facilities
for each room or unit. This classification
includes facilities that are operated for
profit as well as those operated by public
or not-for-profit institutions, including
group homes for minors, persons with
disabilities, people in recovery from alcohol
or drug addictions, and hospice facilities.
See Division 3, Section 9.31.270, Residential
Care Facilities, for further details.
a.

Residential Care, General. A Residential
Faci l ity l icensed by the St at e of
California and providing care for more
than 6 persons.

b.

Residential Care, Limited. A Residential
Facility licensed by the State of California
providing care for 6 or fewer persons.

c.

Residential Care, Seniors. A housing
arrangement chosen voluntarily by
the resident, the resident’s guardian,
conservator or other responsible person,
where residents are 60 years of age
or older and where varying levels of
care and supervision are provided as
agreed to at the time of admission or

36a
Appendix E
determined necessary at subsequent
times of reappraisal. This classification
includes continuing care retirement
communities and life care communities
licensed for residential care by the State
of California.

8.

d.

Hospice, General. A facility that provides
residential living quarters for more than
6 terminally ill persons.

e.

Hospice, Limited. A facility that provides
residential living quarters for up to 6
terminally ill persons.

Supportive Housing. Housing which
meets the definition of Health and Safety
Code Section 50675.14 with no limit on
length of stay that are occupied by the
target population as defined in subdivision
(d) of Section 53260 of the California
Health and Safety Code, and that are
linked to onsite or off-site services that
assist supportive housing residents in
retaining the housing, improving their
health status, and maximizing their ability
to live, and where possible, work in the
community. Supportive housing as defined
by Subdivision (b) of Section 50675.14 may
be provided in a multiple-unit structure or
group residential facility. Facilities may
operate as licensed or unlicensed facilities
subject to applicable State requirements.

37a
Appendix E
9.

Transitional Housing. Dwelling units
with a limited length of stay that are
operated under a prog ram requiring
recirculation to another program recipient
at some future point in time. Transitional
housing may be designated for homeless or
recently homeless individuals or families
transitioning to permanent housing as
defined in subdivision (h) of Section 50675.2
of the California Health and Safety Code.
Facilities may be linked to on-site or
off-site supportive services designed to
help residents gain skills needed to live
independently. Transitional housing may
be provided in a variety of residential
housing types (e.g., multiple-unit dwelling,
single-room occupancy, group residential,
single unit dwelling). This classification
includes domestic violence shelters. See
Division 3, Section 9.31.110, Congregate
and Transitional Housing, for further
details. (Added by Ord. No. 2486CCS §§ 1,
2, adopted June 23, 2015; amended by Ord.
No. 2536CCS § 22, adopted February 28,
2017; Ord. No. 2610CCS § 2, adopted May
28, 2019)

1.08.010 Violations, penalty options.
(a) Criminal Sanctions. It shall be unlawful for
any person to violate any provision, or to fail
to comply with any of the requirements of this
Code. Any person violating any of the provisions

38a
Appendix E
or failing to comply with any of the mandatory
requirements of this Code, shall be guilty of a
misdemeanor, unless otherwise provided. Any
person convicted of a misdemeanor under the
provisions of this Code, shall be punishable by
a fine of not more than five hundred dollars, or
by imprisonment in the City or County Jail for a
period not exceeding six months, or by both such
fine and imprisonment. Any offense which would
otherwise be an infraction is a misdemeanor if the
defendant has been convicted of the same offense
three or more times within the twelve month
period immediately preceding the commission
of the offense and the convictions are alleged in
the accusatory pleading. For this purpose, a bail
forfeiture shall be deemed to be a conviction of
the offense charged. Each such person shall be
guilty of a separate offense for each and every day
during any portion of which any violation of any
provision of this Code is committed, continued or
permitted by such person and shall be punishable
accordingly.
(b) Civil Actions. The City Attorney may bring an
action in a court of competent jurisdiction to
enjoin a violation of any provisions of this Code
or any other ordinance of the City, or to enforce
administrative penalties or fines imposed.
(c) Administrative Fines and Penalties. The City
may impose administrative fines or penalties for
any of the following acts or omissions:

39a
Appendix E
(1) All violations of Articles 3, 4, 5, 6, 7, 8, and
9 of this Code.
(2) Failing to comply w ith any condition
or requirement imposed on or by any
entitlement , per m it , cont ract or
environmental document issued or approved
by the City. Administrative fines may be
imposed, enforced, collected, and reviewed
in accordance with the provisions of Chapter
1.09. Administrative penalties may be
imposed, enforced, collected and reviewed
in compliance with the provisions of Chapter
1.10.
(d) Nuisance Abatement. In addition to the penalties
hereinabove provided, any condition caused
or permitted to exist in violation of any of the
provisions of this Code shall be deemed a public
nuisance and may be, by this City, abated as such,
and each day such condition continues shall be
regarded as a new and separate offense.
(e) Alternative Remedy. Nothing in this Section shall
prevent the City from using one or more other
remedies to address violations as established by
this Code. (Prior code § 1200; amended by Ord.
No. 1813CCS § 7, adopted 9/12/95; Ord. No. 2043
§ 2, adopted 5/14/02; Ord. No. 2057CCS § 3,
adopted 10/22/02)

